                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

TO: AIGI       File Number: I91120029                                               Date: 04 March 2002

Subject: Closeout Memo
                                                                                I           Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to have improperly used NSFYsname. Our
      initial inquiry revealed that NSF suffered no harm and the subject's action appeared to be an isolated
      incident.

      Accordingly this case is closed.




   Name:



 Signature
    date:
                 Prepared by:

               Agent:


                                h
                                Attorney:
                                                  Cleared by:
                                                 Supervisor:     AIGI
